<html>
<title> - THE ISS AFTER 2024: OPTIONS AND IMPACTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                          THE ISS AFTER 2024: 
                          OPTIONS AND IMPACTS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

                           Serial No. 115-09

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
   
   
   
   
   
   
   
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-097 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas














                            C O N T E N T S

                             March 22, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

                               Witnesses:

Mr. William Gerstenmaier, Associate Administrator for Human 
  Exploration and Operations, NASA
    Oral Statement...............................................    14
    Written Statement............................................    17

Dr. Mary Lynne Dittmar, Executive Director, Coalition for Deep 
  Space Exploration
    Oral Statement...............................................    25
    Written Statement............................................    27

Mr. Eric Stallmer, President, Commercial Spaceflight Federation
    Oral Statement...............................................    35
    Written Statement............................................    38

Dr. Robert Ferl, Distinguished Professor and Director of the 
  Interdisciplinary Center for Biotechnology Research, University 
  of Florida
    Oral Statement...............................................    46
    Written Statement............................................    48

Discussion.......................................................    57

             Appendix I: Answers to Post-Hearing Questions

Mr. William Gerstenmaier, Associate Administrator for Human 
  Exploration and Operations, NASA...............................    74

Dr. Mary Lynne Dittmar, Executive Director, Coalition for Deep 
  Space Exploration..............................................    79

Mr. Eric Stallmer, President, Commercial Spaceflight Federation..    87

Dr. Robert Ferl, Distinguished Professor and Director of the 
  Interdisciplinary Center for Biotechnology Research, University 
  of Florida.....................................................    90

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    94

 
                          THE ISS AFTER 2024:
                          OPTIONS AND IMPACTS

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                  House of Representatives,
                             Subcommittee on Space,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Babin. Good morning. The Subcommittee on Space 
will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``The International Space 
Station after 2024: Options and Impacts.'' I'd like to 
recognize myself for five minutes for an opening statement.
    The International Space Station ranks among humanity's 
highest scientific, technological, and political achievements. 
As an internationally built and operated orbiting laboratory, 
the ISS conducts critical research that helps us both on Earth 
and in space. As a multinational project, this engineering 
marvel illustrates the power of U.S. leadership on the 
frontiers of exploration.
    However, frontiers are not static. NASA has worked hard to 
conquer the challenges of low-Earth orbit. We have learned how 
the human body reacts to a microgravity environment. We have 
grown food, crystalized proteins, launched satellites, and 
conducted scientific observations of the Earth and stars above. 
What was once the height of technological daring nearly two 
decades ago has become almost ordinary.
    Once such pioneering challenges are overcome, it is time to 
reexamine where the frontier really lies. In 2015, Congress 
extended ISS operations until 2024. Congress recently passed 
and the President just yesterday enacted the NASA Transition 
Authorization Act of 2017, which requires NASA to develop a 
transition plan for the ISS after 2024. NASA has estimated that 
the ISS will cost taxpayers between $3 and $4 Billion annually 
through 2024--roughly half of NASA's total human spaceflight 
budget. A 2014 report from the NASA Inspector General calls 
this figure optimistic. That report also noted several hardware 
concerns, including the degradation of the station's solar 
power arrays. If NASA stays on the ISS beyond 2024, we ought to 
be aware that remaining on the ISS will come at a cost.
    That cost means tradeoffs with other NASA priorities. Tax 
dollars spent on the ISS will not be spent on destinations 
beyond low-Earth orbit, including the Moon and Mars. What 
opportunities will we miss if we maintain the status quo? In 
its report, Pathways to Exploration, the National Academies 
stated that a continuation of flat budgets for human 
spaceflight is insufficient for NASA to execute any pathway to 
Mars and limits human spaceflight to LEO until after the end of 
the ISS program. And if you would put this slide up, please? As 
you can see on the screen, the longer we operate the ISS, the 
longer it will take to get to Mars. The ISS is there in the 
purple. You can see that.
    Subsequent reports, particularly by the Planetary Society 
in their Humans Orbit Mars report, evaluated different 
architectures, and found that Mars exploration could be 
conducted with flat budgets, but that transitioning from the 
ISS in 2024 would be considerably better.
    Many private sector stakeholders currently rely on the ISS 
and would need to seek out other options if they can should the 
ISS be unavailable. While I believe it is in the Nation's 
interest to encourage a thriving economy in space, we must 
balance our support for private-sector efforts while also 
prioritizing NASA's role as an exploration agency. Can 
commercial use generate sufficient revenue by 2024 to cover the 
full cost of U.S. participation on the ISS? Could public-
private partnerships or other novel approaches allow the U.S. 
to continue involvement in the ISS without tying up NASA 
funding? Will there be a sufficiently robust market that the 
U.S. will be able to procure service in low-Earth orbit 
commercially, or will the government need to continue to 
subsidize these activities in order to maintain access?
    Aside from private sector impacts, the international aspect 
is also a critical part of the puzzle. The European Space 
Agency has already shifted its focus from the ISS, changing its 
contribution from ISS resupply to collaborating with NASA on 
the Orion Crew Vehicle. Meanwhile, China will be putting their 
first space station into operation just as the presence of NASA 
and its international partners on the ISS could be ending, 
effectively turning over human presence in low-Earth orbit to 
China.
    Continuing NASA's involvement on the ISS could arbitrarily 
limit or delay human exploration of deep space by the U.S. Let 
us not forget that China also plans to launch a crewed mission 
to the Moon in the 2030s. What we do in low-Earth orbit will 
dramatically influence global efforts in our space exploration.
    I want to thank today's witnesses for being here, and we 
look forward to our discussions and having your answers to our 
questions.
    [The prepared statement of Chairman Babin follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Chairman Babin. And let's see. Now I want to recognize the 
Ranking Member, the gentleman from California, Mr. Bera, for an 
opening statement.
    Mr. Bera. Good morning, Mr. Chairman, and thank you for 
holding this obviously very timely hearing, The ISS After 2024: 
Options and Impacts.
    I'd also like to welcome our witnesses and I look forward 
to hearing your testimony.
    Two hundred and twenty miles above the Earth, the 
International Space Station, a complex assembly of 
interconnected nodes and modules, weighing almost a million 
pounds and spanning the length of a football field, orbits our 
Earth 16 times a day.
    NASA and its international and commercial partners have 
overcome many challenges during the many years of design, 
development and assembly to ensure the continued safe and 
productive operations of the Space Station, and I want to thank 
NASA's employees, supporting contractors, researchers, and 
partners for their continued dedication and commitment. This is 
a marvel of what we can do when we put our minds to a 
challenge.
    That said, the current mission, ISS Expedition 50, is 
testing lighting effects to improve crew health and 
investigating changes in tissue regeneration while in space, 
adding to a growing array of scientific, biomedical, and 
technology research being carried out on the ISS.
    As NASA's focus has turned to a vibrant research program, 
supported by a frequent schedule of visiting vehicles for crew 
transfer and cargo delivery, it is sometimes easy to forget how 
hard human spaceflight really is. Aboard the ISS, NASA is 
enabling the research, skills and capabilities that our 
astronauts need for taking the next step: moving out into 
exploring deep space.
    Taking these next steps is something this Committee and 
Congress have supported through multiple NASA Authorizations, 
most recently the NASA Transition Authorization Act of 2017 
that is now law. Again, as we start to set our sights on 
sending humans beyond low-Earth orbit, we also face some 
difficult funding decisions. Several independent panels have 
concluded that if we want to both extend the ISS past 2024 and 
undertake a meaningful human exploration program, we need to 
provide the required funding. Otherwise, we have to choose 
between NASA's extending the role of ISS past 2024 or 
reconsider our goals and expectations for human exploration 
beyond low-Earth orbit.
    The ISS is currently authorized to operate through at least 
2024. Within the next few years, Congress will need to decide 
whether to extend the ISS beyond 2024, and what role NASA 
should have in low-Earth orbit once ISS operations cease.
    So, Mr. Chairman, this obviously is a very timely 
discussion that we're having as we look at the broader NASA 
mission, and again, our stated goal of trying to get to human 
exploration and human travel to Mars by 2023--2033. We could 
bump it up, though, Mr. Trump. I look forward to this 
discussion this morning, and thank you, and I yield back.
    [The prepared statement of Mr. Bera follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Chairman Babin. Thank you, Mr. Bera.
    Seeing that our full Committee Chair nor the Ranking Member 
are present, I'd like to go ahead and introduce our witnesses 
today.
    Our first witness is Mr. Bill Gerstenmaier, Associate 
Administrator for Human Exploration and Operations at NASA. Mr. 
Gerstenmaier provides strategic direction for all aspects of 
NASA's human exploration of space and cross-agency space 
support functions including programmatic direction for the 
operation and utilization of the International Space Station. 
He holds a bachelor of science in aeronautical engineering from 
Purdue University, and a master of science in mechanical 
engineering from the University of Toledo. He also earned his 
Ph.D.--so I apologize for not saying ``doctor,'' Dr. 
Gerstenmaier--he earned his Ph.D. in dynamics and control with 
emphasis on propulsion at Purdue University. So we're glad to 
have you here.
    Dr. Mary Lynne Dittmar, our second witness today, Executive 
Director of the Coalition for Deep Space Exploration. We 
appreciate you being here. The Coalition for Deep Space 
Exploration is an industry trade group supporting human 
exploration, development in science and deep space. Dr. Dittmar 
has worked for the Boeing Company, where she coordinated 
research and development, and managed the Flight Operations 
Group for the International Space Station program. She has also 
served as a Senior Policy Advisor for the Center for the 
Advancement of Science in Space, or CASIS, which manages the 
ISS National Laboratory. Dr. Dittmar is also a Fellow of the 
National Research Society and an Associate Fellow for AIAA and 
a Board Member of AAS, and was a co-author of the Pathways to 
Exploration report produced by the NRC in 2014. Glad to have 
you here.
    And our third witness today is Mr. Eric Stallmer, President 
of Commercial Spaceflight Federation. Mr. Stallmer has worked 
at the Space Transportation Association, a nonprofit industry 
trade organization providing government representation to 
companies interested in the U.S. space launch industry. Glad to 
have you here this morning. Mr. Stallmer has also served as an 
officer in the United States Army Reserves and was awarded the 
Bronze Star Medal for Meritorious Service while engaged in 
combat operations during Operation Iraqi Freedom. He earned a 
master of arts in public administration from George Mason 
University and a bachelor of arts in political science and 
history from the Mount St. Mary College. Glad to have you here.
    Our fourth witness today is Dr. Robert Ferl. He is a 
Distinguished Professor and Director of the Interdisciplinary 
Center for Biotechnology Research at the University of Florida. 
Dr. Ferl co-chairs the Committee on Biological and Physical 
Sciences in Space for the National Academies of Science and is 
the past President of the American Society for Gravitational 
and Space Research. Dr. Ferl and his lab have studied the 
aspects of microgravity environment as well as develop flight 
hardware for understanding biological effects of spaceflight.
    I now recognize Dr. Gerstenmaier for five minutes to 
present his testimony.

             TESTIMONY OF MR. WILLIAM GERSTENMAIER,

                  ASSOCIATE ADMINISTRATOR FOR

             HUMAN EXPLORATION AND OPERATIONS, NASA

    Mr. Gerstenmaier. Thank you, Chairman, and thank you to the 
Committee for having me here. You were correct originally. I 
completed coursework for my Ph.D. but I never received my Ph.D. 
So ``Mister'' is good and it works well.
    The International----
    Chairman Babin. You can have an honorary doctorate.
    Mr. Gerstenmaier. I don't know about that.
    So the International Space Station is about humanity's 
future in space. It also tells us about the roles major players 
participated in helping us to get there.
    ISS is the most complex engineering complex ever 
constructed. As an engineer, I'm tempted to quote numbers: 37 
space shuttle flights, 1,000 hours of EVAs, or space walks, 197 
space walks, both U.S. and Russian, 12 years to build, $67 
Billion including the shuttle launch costs, and a mass of 
925,000 pounds.
    The scale of what we've accomplished is enormous. Like the 
interstate highway system, it was designed to move our Nation 
forward, and it could not have been done without public 
investment.
    As a high-tech spaceflight endeavor, ISS has changed the 
way the Nation thinks about space. We've shown that humans can 
life off the Earth for extended periods of time. There's been a 
continuous human presence off the Earth for over 16 years. We 
can assemble large structures in space via humans in 
spacesuits. We've changed the way that robotics can be used for 
assembly in space. All of the recent SpaceX external payloads 
were installed on the ISS via ground-controlled robotics, and 
the three external payloads were removed from the Space Station 
and installed in the SpaceX trunk for disposal, all again 
through ground robotics. SpaceX was even berthed at the Space 
Station via ground control and not by astronauts on board.
    ISS created the need for NASA to accept alternate 
engineering standards from a variety of grounds. This allowed 
NASA to build techniques to accept alternate commercial 
standards for commercial vehicles. Today ISS represents 13 
percent of the total global launches to space.
    The relaxed reliability requirements for ISS cargo allowed 
for disruption of the U.S. launch industry and resulted in 
lower launch costs for all users and return of commercial 
satellite launches to the United States.
    One of the most enduring outcomes from the ISS is the 
ability for the governments of the U.S., Japan, Russia, Europe 
and Canada to work together peacefully in space. ISS has paved 
the way for international operations with 225 people from 18 
countries having visited the International Space Station. This 
cooperation is much more than simply working together. We are 
dependent on each other for successful operations.
    The intergovernmental agreements developed to make this 
happen are phenomenal in their simplicity and ability to 
facilitate real-time operations of this incredibly complex 
facility. These arrangements paved the way for future 
exploration and allowed for the European Service Module to 
become part of Orion. Although the cost and effort--although 
the cost, effort and resources to build this facility was high, 
this is precisely the role of large government activities. The 
diversity of benefits from a single activity are enormous. The 
private sector could have done some of the individual items in 
part but not the entire suite of accomplishments and not with 
such broad national benefit. The role of government is to do 
things that the private sector cannot so both commerce and the 
broader society will have more opportunities in the future.
    As we go forward, how do we build off of the ISS 
achievement and utilize the International Space Station to 
strengthen the role of the United States as a leader in space 
and technology. The focus needs to be on using the ISS for the 
full range of national purposes both of those predicted in 
advance and those that we discovered through its use.
    It's great to have this hearing today and discuss better 
uses of the ISS. How we utilize the ISS through 2024 can 
influence the options and impacts for ISS after 2024. The 
promise of ISS to continue to yield national benefits is high. 
We are exploring today with the ISS by using it to test out 
systems, both human and machine, and understand how those 
systems will work when applied to deep space exploration 
missions. ISS is perfect for that role.
    The use of ISS as our national laboratory in space to help 
develop the private sector demand and revenue for space-based 
activities as NASA prepares for deep space exploration will be 
critical to U.S. leadership in science and technology. We are 
today formulating plans to make available a port on the ISS for 
private sector use. We are looking at legislative proposals to 
help facilitate commercial uses of ISS. All of these activities 
are just starting and will be critical to advancing U.S. 
leadership.
    The external world is not static, and China's plans for 
human space exploration are also likely to influence the 
options for the ISS. China is planning for a government space 
station in 2023.
    As NASA progresses towards moving human spaceflight into 
the solar system, the rate of this expansion will also be an 
influence on the operations and options for ISS. The continuity 
of human spaceflight from ISS in low-Earth orbit to regular 
missions of SLS and Orion to cislunar space is a critical 
requirement feature for U.S. leadership in space. A continuous 
U.S. national astronaut program is part of this leadership.
    The decision to extend the ISS to 2024 showed great 
leadership by the Administration and Congress. This decision 
was made without full knowledge of the future but is proving to 
keep the United States in a leadership role for space 
technology development and to benefit--to the benefit of both 
U.S. commerce and broader national goals. Likewise, the 
decisions for ISS after 2024 will be made without all of the 
data on future benefits required for a perfect decision, but we 
can today utilize ISS in ways that influence that decision 
towards a greater national benefit.
    Global leadership requires decisions with less-than-perfect 
data or foresight but that's what leadership is all about. 
Where the United States leads, others will follow, and the 
future will be shaped by American values.
    I look forward to your questions and discussions in the 
hearing today, and I thank you for the timely discussion on 
this topic.
    [The prepared statement of Mr. Gerstenmaier follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Babin. Thank you, Mr. Gerstenmaier.
    I now recognize Dr. Dittmar for five minutes to present her 
testimony.

              TESTIMONY OF DR. MARY LYNNE DITTMAR,

                      EXECUTIVE DIRECTOR,

              COALITION FOR DEEP SPACE EXPLORATION

    Dr. Dittmar. Chairman Babin, Ranking Member Bera, and 
Members of the Subcommittee, thank you for the opportunity to 
speak with you today on a subject of great importance to our 
national leadership in space: the future of the International 
Space Station after 2024.
    It is indeed an honor to appear before you and particularly 
in the company of this distinguished panel.
    Before I begin, I would like to congratulate you and the 
Committee staff on passage of the NASA Transition Authorization 
Act signed into yesterday by the President. On behalf of the 
Coalition for Deep Space Exploration and its 67 member 
companies, I want to thank you personally for your diligence 
and your ongoing support of the Nation's space program.
    In 2014, in response to a request from Congress, the 
Committee for Human Spaceflight of the National Research 
Council produced the Pathways to Exploration report, which 
contained observations and recommendations supporting a robust 
program of human space exploration. Among other findings, the 
report described the funding constraints facing NASA should the 
ISS continue to operate after 2024, namely, that if NASA is to 
continue making progress in deep space, it could not maintain 
the ISS without significant cost reduction. The committee 
discussed the role of ISS research and reducing risk in deep 
space exploration and understood that termination of the 
program would end opportunities for continued research in these 
areas as well as potentially cut short the research benefiting 
Earth going on at the ISS National Lab.
    Fortunately, thanks to Congress, in the three years since 
the report was published, NASA's human spaceflight program 
funding has improved, and in my written testimony, I provide a 
moderation--a modification of the chart that you showed 
earlier, Chairman, that showed that line inching up a little 
bit there.
    However, the larger point remains: one political avenue for 
reducing the government's investment in the ISS is by 
generating alternate sources of revenue. However, at present, 
there is no compelling economic driver apparent in LEO that can 
bridge the gap between current commercial activity and the 
revenues that are necessary to significantly offload ISS 
operations costs. Given that markets frequently take decades to 
develop, this is not surprising.
    The best answer for now is to create the optimal conditions 
for market breakthroughs, reducing barriers through the use of 
the ISS while working hard to enable innovation with economic 
value to occur and recognizing that this will take time and 
ongoing investment, and indeed, this is what NASA and CASIS 
have been doing.
    In my written statement, I noted the significant progress 
being made in this regard. The growing number of applications 
and paying customers in space combined with an increased 
diversification of research objectives, funding sources and 
actors improves the odds that one or more of these efforts will 
lead to sustained economic activity, and indeed, applications 
with strong market political are emerging, which in turn are 
leading to increased interest in the development of commercial 
modules and follow-on platforms.
    These efforts will not guarantee development of a market or 
establishment of sufficient revenues or investment to offload 
the government and reduce costs. However, abandoning the ISS 
too soon will most certainly guarantee failure.
    I would like to briefly turn to the importance of ISS to 
deep space exploration. First, the international partnership 
already mentioned at the heart of the ISS is a major building 
block for an international program to move humans off the Earth 
toward Mars. The ISS has demonstrated that a great multilateral 
enterprise such as this one brings to the table intellectual 
capital, scientific abilities, research, engineering, funding, 
and interest in peaceful technology development on the part of 
many nations. We have come to trust each other, to learn from 
each other, and to depend on each other for our very lives in 
low-Earth orbit. It will be the same in deep space. Continuing 
engagement with partners old and new through the ISS is 
required at least until such time as a robust international 
program is also established beyond low-Earth orbit.
    Secondly, innovation on the ISS has the potential to create 
breakthroughs that will inform deep space exploration and 
reduce costs there as well. A company called Made in Space is 
experimenting with 3D printing in LEO but wants to extend this 
work into deep space including on the surface of the Moon and 
Mars. The ability to manufacture tools and other equipment from 
native materials can reduce mass requirements and therefore 
cost for deep space missions. Other innovations are likely to 
follow.
    Third, NASA is now putting in place the exploration 
architecture that will take us out into the solar system. The 
next steps will help inform the uses of the ISS in helping that 
architecture to progress, doubtless in some ways that we cannot 
now anticipate. A good example of this is using the ISS as a 
testbed for systems that don't always work the way we think 
they're going to once they're put into space. The Environmental 
Life Control System, or ECLSS, is very high on that list but as 
we move into deep space, there will be others.
    Finally, the next two years or so will see the return of 
Americans on American launch vehicles to the ISS and will see 
the return of Americans to deep space on American systems built 
for that purpose for the first time in almost 50 years.
    The ISS is the heartbeat of human spaceflight 24 hours a 
day, 365 days a year. American leadership in space requires a 
constant and vigilant presence, one that the ISS has provided 
during the gap in our own flight access. Learning from history, 
we should not step away from the ISS until a robust human 
spaceflight program has been established in cislunar space.
    Thank you for your attention. I look forward to your 
questions.
    [The prepared statement of Dr. Dittmar follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Chairman Babin. Thank you, Dr. Dittmar.
    Now I recognize Mr. Stallmer for five minutes to present 
his testimony.

           TESTIMONY OF MR. ERIC STALLMER, PRESIDENT,

               COMMERCIAL SPACEFLIGHT FEDERATION

    Mr. Stallmer. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir.
    Mr. Stallmer. I want to thank you and Ranking Member Bera 
and Members of the Subcommittee. I'm pleased to have this 
opportunity to present the Commercial Spaceflight Federation's 
views on the ISS after 2024.
    CSF represents 70-plus companies and tens of thousands of 
employees dedicated to America's future in space. In my 
testimony, I will lay out a sustainable vision not just for 
human spaceflight in low-Earth orbit but for America's broader 
and deeper space ambitions. This discussion is not just about 
the value of ISS in and of itself or even NASA's exploration 
agenda for the Moon, Mars and beyond. The right yardstick is 
America's future economic development and settlement of space 
starting with LEO but expanding outward. Clearly, want our 
first long-term international space station to be a firm 
steppingstone to that grander future.
    By next year, for the first time in U.S. history, our space 
program will have multiple means of safely and affordably 
getting science experiments, other cargo, and crew to space. 
The ISS is currently expected to be utilized through at least 
2024, but this Committee is posing the question of what should 
occur after. My testimony will focus on three of these areas.
    First, the ISS should be sustained beyond 2024 to the 
extent that the space station is technically capable and safe 
to remain in orbit. In addition, rather than abruptly ending 
such a major program without a functional successor, any ISS 
transition plan should prepare an evolutionary path in order to 
avoid disrupting science and operations on orbit, and any 
unnecessary economic upheaval to local economies.
    Second, to maximize return on investment for the Nation, 
commercial utilization of the ISS should be expanded, and NASA 
should take full advantage of these opportunities to offset 
some of the costs to maintain the space station.NASA should use 
public-private partnerships to develop commercial space 
capabilities and services to support its cislunar activities, 
and should use commercial launch systems to support and augment 
these activities.
    The International Space Station is one of the greatest is 
one of the greatest achievements of our time. It's an 
engineering marvel, built and operated in concert with our 
partners around the world. It's a treasured national lab, 
contributing to key scientific breakthroughs in science and 
research, and it represents the longest ever sustained human 
presence in space. It's the foundation of humanity's voyage to 
the stars, and the commercial spaceflight industry is proud to 
play a key role in its continued success.
    Given this incredible investment, we need to ensure that we 
are maximizing our scientific and economic return from this 
unique asset. We are grateful for the Committee and the 
Congress's recognition of the value of Space Act Agreements, 
which has helped further along the transportation goals for the 
ISS, and for your support of this important tool in the recent 
NASA Authorization bill.
    SpaceX as well as a growing number of new American 
commercial launch companies are recapturing a majority of the 
world's multiBillion dollar commercial launch market after 
years in which the United States was simply not competitive, 
and the same Space Act Agreement partner with NASA has also 
helped restore getting American astronauts on American vehicles 
from American soil.
    The private sector has jumped at the opportunity to support 
research on the ISS. Companies like Bigelow Aerospace, Planet, 
and NanoRacks are testing new technologies like inflatable 
habitats to help us go deep into space, developing new 
generations of advanced satellites, and opening up 
opportunities to a broader utilization community to fly 
thousands of experiments.
    Understandably, in this era of fiscal constraints, it's 
prudent to review opportunities that exist to introduce 
additional efficiency. But, to be very clear, the ISS and 
NASA's deep space exploration programs are not in competition, 
but, rather, are complementary.
    Opening the ISS to private businesses now and continuing 
this agenda past 2024 will deliver an assured transition to a 
sustained private American presence in low-Earth orbit that can 
untether NASA from the fixed costs of the future space stations 
while continuing to make capabilities available whenever 
needed. The same technologies being developed for use traveling 
to and operating on ISS today, as well as other commercial 
capabilities, will enable us to sustainably go deeper in space 
than ever before. We must leverage the commercial capabilities, 
both those being proven out on ISS, as well as these others 
under development.
    Blue Origin right now has announced it's developing its own 
deep space exploration architecture and has proposed to conduct 
what it's calling Blue Moon by 2020, a lunar lander that will 
touch down on the resource-rich crater on the Moon's south 
pole. This program would augment and enable NASA's lunar 
activities. We've also heard that SpaceX which has recently 
announced a privately funded mission to Mars in 2020 on the Red 
Dragon spacecraft, a derivative of the Crew Dragon spacecraft 
they will be using to fly NASA astronauts. Made In Space, as 
Mary Lynne has mentioned, already manufacturing on ISS and is 
developing advanced commercial on-orbit manufacturing services 
producing products for use in space and on Earth. And Moon 
Express has announced that it has the resources it needs to 
ensure that the company can attempt to launch a small robotic 
lander to the Moon as soon as the end of this year.
    In conclusion, how should Congress enable a sustainable, 
robust American space enterprise, one that will continue to 
foster the burgeoning commercial activity in low-Earth orbit 
but also enable the United States to make meaningful progress 
in deep space? The answer is short. It's to expand the use of 
public-private partnerships with American commercial space 
companies. Through private-sector competition, investment, and 
innovation, the commercial space industry has proven it can 
deliver reliable and affordable goods and services that support 
U.S. government civil space missions and initiatives, as well 
as recapture global market share.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Mr. Stallmer follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Chairman Babin. Thank you, Mr. Stallmer.
    Now I recognize Dr. Ferl for five minutes to present his 
testimony.

                 TESTIMONY OF DR. ROBERT FERL,

                  DISTINGUISHED PROFESSOR AND

            DIRECTOR OF THE INTERDISCIPLINARY CENTER

                  FOR BIOTECHNOLOGY RESEARCH,

                     UNIVERSITY OF FLORIDA

    Dr. Ferl. Mr. Chairman, Mr. Ranking Member, and Members of 
the Subcommittee, thank you for the opportunity to talk to you 
this morning from the scientist's perspective of life and 
physical sciences as they both enable deep space exploration 
and are enabled by the unique opportunities of understanding 
physical and life processes in the absence of gravity.
    I speak to you today as a scientist with more than 25 years 
of experience in the broader areas of spaceflight research 
using many of the platforms, flights and tools that have been 
available to spaceflight over this time. My research is 
dedicated to understanding the molecular and physiological 
effects of spaceflight on terrestrial life forms in order to 
develop safer deep space capabilities for human exploration.
    My comments today are also informed by my roles with the 
National Academies. I was a member of the writing committee for 
the NRC study that ended up being called Recapturing Space 
for--Recapturing a Future for Space Exploration, Life and 
Physical Sciences for a New Era. That was published in 2011. 
And I wish to share with you a very positive regard--positive 
view regarding the current status and activities on the ISS, a 
view in fact enriched by experiments over the last few weeks 
conducted on the Space Station, monitored in real time from 
Kennedy Space Center 3 weeks ago with Peggy Woodson doing our 
stuff on orbit. We spent last week at Glenn Research Center 
downloading in real time information from the light microscopy 
module on orbit, and our samples landed in the Pacific this 
weekend. I can tell you there's essentially no better time to 
be a spaceflight researcher than right now given the 
capabilities of the International Space Station.
    The demonstration and the evolution of the quality of 
experiments as they've moved from the early days in the space 
shuttle era into the space station era is dramatic, and the 
kinds and difficulties and opportunities of science in the 
Space Station are remarkable.
    The space life and physical sciences are governed, enabled 
by, and monitored and managed by the Space Life and Physical 
Sciences Research and Applications Division of NASA. I wish to 
give my thanks to NASA for standing up that division. That 
division was stood up in alignment with the Decadal Study and 
has reinvigorated the scientific community such that we can 
indeed talk about the science of space and spaceflight now in 
ways that were not available in years past. They've done a 
great job getting our community back up and running and doing 
the science in support of the exploration agenda.
    The ISS is currently the only space-based platform that 
provides extended access to the spaceflight environment, and as 
such, provides the only means to assess the long-term effects 
of this environment on terrestrial organisms and the physical 
systems that would be used to support them. Such data are 
crucial to inform--more fully inform the deep space exploration 
ideas such as missions to Mars.
    I wish to stress that the ISS is now a fully functional 
laboratory with trained personnel that are interested in 
science and that are doing the business of science on a daily 
basis in space. A shift to private sector platform providers as 
part of the increasingly privatized LEO ecosystem could be a 
part of a successful microgravity program provided that NASA's 
stewardship of this portfolio of research is maintained. 
They've been great stewards of the science that it takes to 
move humans into deep space and they've been doing that on the 
International Space Station and any movement away from the 
International Space Station would be enhanced greatly but 
mostly only if NASA and Space Life and Physical Sciences within 
NASA remain stewards of this portfolio of research.
    There are important things for Congress to look at as we 
move forward towards the dates such as 2024 as crew time on 
orbit. As I mentioned, the access to the special laboratories 
that are represented in the International Space Station are 
enabled by a highly active and highly integrated, interested 
and capable crew there. So crew time on orbit is something that 
the Committee and Congress should be very much aware of, and in 
any notions of projecting whether we'll be ``ready'' to enter 
deep space will be sort of deeply affected by how much crew 
time is dedicated to science between now and that time.
    So I wish to thank you again for the opportunity to 
present. I look forward to your questions.
    [The prepared statement of Dr. Ferl follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      Chairman Babin. Thank you, Dr. Ferl.
    I want to thank all the witnesses for their testimony. The 
Chair now recognizes himself for five minutes.
    This first one is to Dr. Dittmar. China plans to send a 
crewed mission to the Moon in the 2030s. The European Space 
Agency has discussed a Moon village. Assuming flat budgets, how 
is America's leadership in space impacted by continuing the ISS 
into 2028 or even into 2030? For every year we extend the ISS, 
are we delaying the development of new deep space projects by 
year?
    Dr. Dittmar. Mr. Chairman, first of all, I don't know about 
the one-to-one relationship that you described which is that 
for every year that station continues to fly, there's a delay 
by a year. I would not really know how to go about answering 
that question.
    What I would say is that there is no question that under a 
flat budget you're basically in a zero-sum game unless you're 
able to find ways to offset that game with either significant 
cost reductions or the influx of additional revenue from some 
source, whether that source is coming from commercial ventures 
or whether it's coming by contributions of international 
partners or in some other way.
    So with regard to continuing to fly the ISS and while still 
planning to move into cislunar space and beginning to generate 
activities there, what's going to have to happen, okay, is that 
there--the things I've already started talking about in 
testimony, in order for the station to continue, you're going 
to have to find ways to reduce cost. The clearest way that we 
see that happening right now is through the advent of things 
like public-private partnerships, which Eric mentioned, as a 
way of sort of doing acquisition that's a little bit different. 
We need acquisition reform in general, and so that's one path 
to being able to reduce costs. Continuing to encourage the 
existing partners who are develop corporate partners with NASA 
who are developing deep space exploration activities to find 
ways to reduce costs in production as well as in operations is 
another way to reduce cost, trying to get costs down on that 
end as opposed to the ISS end.
    I think the thing that's most important is to look at the 
entire portfolio of activities that NASA's considering, to try 
and find opportunities for cost reduction everywhere along the 
way. I think we make a bit of a mistake, we're not thinking 
about things systematically if we're just focusing on reducing 
costs associated with ISS. I think we have to look at it across 
the board: Where can we find cost reductions in the entire 
human spaceflight enterprise and/or opportunities to bring in 
additional revenues across that entire spaceflight enterprise, 
and I think that's what we really have to focus on and NASA has 
to focus on very carefully.
    Chairman Babin. Thank you very much.
    And Mr. Stallmer, NASA has invested a lot of money in the 
United States commercial space companies in the hopes of 
developing a self-sustaining space infrastructure. Could the 
ISS be self-sustaining without NASA subsidizing transportation 
or operations costs? Do any of your members have plans to offer 
low-Earth orbit Space Station Services in the near term absent 
NASA development funding?
    Mr. Stallmer. Thank you very much, Mr. Chairman. That's a 
great question. I appreciate that.
    I think as Mary Lynne had said earlier, echoing the public-
private partnerships that NASA has engaged in with the 
commercial sector, I think we are already seeing the NASA 
investment in these partnerships are already paying huge 
dividends. We're seeing this in the cost to access to space, 
with the Commercial Crew program, the tremendous reduction in 
costs that has afforded NASA, as well as coming online next 
year the Commercial Crew program that will be returning 
astronauts to the Space Station. Those are already yielding 
great benefits for NASA.
    I see also the value of what a lot of the commercial 
companies are doing currently on the Space Station, most 
recently the investment that Bigelow Aerospace has made with 
the module that they attached to the Space Station. I think 
that--you're going to see commercial benefits yielded from 
that, not just on the Space Station but for future missions 
outside and off the Space Station. And also the manufacturing 
that we'll see, the potential there, a very, very small 
investment that NASA made years ago, just a few years ago on 3D 
printing with Made in Space and the benefits that that is 
reaping right now.
    So I'm very excited about the returns that NASA will see 
from the investment in the commercial community.
    Chairman Babin. Thank you very much.
    And then finally, Mr. Gerstenmaier, at a 2015 NASA Advisory 
Council meeting, you were quoted as saying ``we're going to get 
out of ISS as quickly as we can whether it gets filled in by 
the private sector or not. NASA's vision is, we're trying to 
move out.'' Is this statement still accurate?
    Mr. Gerstenmaier. I think the accuracy in the statement or 
the discussion is really, we have a--we need to do a 
transition. It was described in some of the earlier testimony, 
it's not good to end Space Station and then try to start 
exploration. There needs to be a smooth handoff from the one 
activity on Space Station to the exploration activity moving 
forward.
    I think it's also wrong to assume that exploration and ISS 
are competing with each other. They're really helping each 
other. We're working today on Space Station to understand the 
physiological problems of being in microgravity on the human 
body. Those are not fully resolved yet. We just recently 
discovered several years ago the intracranial pressure problem 
that causes vision problems on station. If that was not 
discovered on Space Station, we would have carried that 
potentially with us into Moon, Mars activities and it could 
have been detrimental to our crews. So that work and that 
research is absolutely critical to what we're doing going 
forward.
    We're also testing Orion life support systems today on 
station, so I think there's a transition, but I think NASA's 
predominant role should be to move to deep space, take the 
private sector along with us to deep space, and continue that 
activity moving forward, and to do that, we need to relinquish 
the NASA role in low-Earth orbit, so it's a natural transition. 
It's not quite as stark as maybe it was described in the quotes 
that you previously read to me.
    Chairman Babin. Thank you very much, Mr. Gerstenmaier.
    I now recognize Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    I think, Mr. Gerstenmaier, and actually all of you talked 
about the remarkable engineering accomplishment of the 
International Space Station. In addition, it was a remarkable 
accomplishment of different governments working together, you 
know, finding that cooperation. That's going to be necessary as 
we go on to our next mission into deep space, so I think that's 
as equally a remarkable achievement.
    In your comments, this is not an abrupt let's stop in 2024. 
This should be a transition as we move from one mission to the 
next mission, and if we've got a workable asset that still is 
safe and can be used, we clearly--there's clear scientific 
value in continuing to use that asset, and I have to imagine 
there's commercial interest in how you use that asset. So I 
think for this body as we start to think about this transition, 
it shouldn't be an either/or, it should be how do we broaden 
and bring in other partners.
    I think, Dr. Dittmar, you talked a little bit about this, 
you know, you can either lower costs or increase revenue, or do 
both simultaneously, which is what you do in the private sector 
and what we ought to be thinking about doing here. In your 
view, or Mr. Stallmer, is there sufficient commercial or 
academic interest that could start raising revenue or even 
international interest, other companies that have growing 
interest in space like India and others who may want to bring 
in additional partners. Dr. Dittmar?
    Dr. Dittmar. One of the things that's really interesting 
when you take a look at the ISS in terms of utilization of it 
is the growth curve, which is astonishing over the last ten 
years. I started a few companies, and if I had gone from four, 
five, well, 15 originally countries who were eventually--
originally engaged in the ISS to over 100 given all the 
barriers that are involved in flying to the ISS and actually 
doing operations in space, and these are really significant. 
They're not--it's not the same as doing work here on Earth.
    When I was preparing for this testimony, I went and looked 
at--one interest I have is the amount of time that it takes for 
technology once it's introduced to basically kick off a market, 
and those numbers sort of average around 15 to 20 years, but 
they can be even longer. So for example, the interval between 
the integrated circuit and the iPhone is about 49 years. We 
think about these things as they occurred very closely in time 
but they didn't. Twenty-seven years ago, we began the Human 
Genome Project, and despite the fact that we basically have 
unraveled the genome and are now doing a lot of research in 
that area, we still don't have the cure for cancer. However, 
we've grown a lot of markets that have developed off of that 
research, a lot of which couldn't originally been predicted 
when you looked at the original definition of trying to define 
the genome.
    So the point I'm basically trying to make is, I think that 
it's impossible to predict commercial activity that's based on 
research and innovation. What we do know are the kinds of 
conditions that you can create to help bring that about, and I 
think that NASA and CASIS and other entities have done--and 
international partners have done a fantastic job in trying to 
lower the barriers to the use of ISS and create that sort of 
environment.
    So I think there are a growing number of commercial 
companies--right now there's six companies flying onboard the 
station with their own commercial facilities with paying 
customers. That's a huge change from ten years ago. And there's 
certainly a lot of companies that are interested in developing 
a commercial module. Eric mentioned Bigelow. There's Axion, 
there's some other companies that are trying to do it, and then 
there's international--as I mentioned, international 
participation which has grown to over 100. So I think that what 
we really have to do is look at the trend lines, which are all 
very positive, but if you're going to ask me to predict a date 
and a time when that would happen, I'm not able to do that.
    Mr. Bera. And we certainly shouldn't predict that day and 
time. It may happen sooner than 2024, which allows us to free 
up additional resources to do other missions.
    Mr. Stallmer, you know, just playing off of Dr. Dittmar, it 
does seem like there's that interest if we created that space 
for the commercial sector. You know, again, they may not know 
exactly what they're going to do but there's an interest in 
using this asset and the potential for generating revenue to 
offset the costs of operating ISS. Is that an accurate 
statement?
    Mr. Stallmer. I think that's a very accurate statement. I 
think you're seeing work being developed on the ISS by 
companies, some that didn't exist a decade ago, and the 
technologies that they are doing and the research that they're 
learning from the microgravity experience that they have. We 
touched on a few of them, but I see the manufacturing that is 
going to go on in the Space Station. It really is a tremendous 
building block of what we're going to do and it's just critical 
that any deep space exploration that we're going to do down in 
the future that we're developing that technology and research 
now on the station.
    Mr. Bera. So we don't know what 2024 looks like but we do 
know there's a curiosity and a desire, and we ought to create 
that space for other international partners or commercial 
partners to explore that space.
    Mr. Stallmer. And there's investment.
    There's commercial investment. That's, I think, the most 
important takeaway.
    Mr. Bera. Great. I'll yield back.
    Chairman Babin. Thank you.
    I now recognize other members for questions, and we'll 
start with the gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ladies, ma'am, gentlemen, thank you for appearing before 
the Committee. Thank you for the work that you do for our 
Nation and indeed our world.
    This Committee is certainly committed to the revitalization 
of NASA's manned space program. Keeping that in mind, we're 
also committed and indeed bound in our duty to protect and be 
careful stewards of the people's treasure.
    So considering the fact that new technologies are developed 
every day, technologies like carbon nanotubes, which have the 
diameter of 10,000 times less than that of a human hair, 
they're stronger than steel, and have the stiffness properties 
of diamond; 3D printers, which are developing quite remarkable 
products every day with new technologies across the world; it 
leads one to wonder, considering although the unbelievably 
successful service that existing International Space Station 
has rendered to America and the world, leads one to wonder 
whether or not the continued investment beyond 2024 in the ISS 
is reasonable.
    On the other hand, the same technologies that are being 
developed which could ultimately lead to perhaps a next-
generation International Space Station will also present us new 
opportunities to extend the life of the existing Space Station.
    So my question, first, to Mr. Gerstenmaier, specifically 
regarding manned spaceflight and deep space exploration for the 
American space program led by NASA, do you envision beyond 2024 
the existing ISS to be in any way useful for that manned space 
exploration or does it have a role, do you envision that role, 
and if so, please explain, and if not, please expound.
    Mr. Gerstenmaier. I believe the station has a critical role 
in exploration as we have technical challenges that we have to 
conquer or overcome as we go beyond low-Earth orbit. The 
requirements to keep technology highly reliable with low 
resources to essentially break the tie back to the planet 
Earth--Space Station is resupplied all the time today by cargo 
vehicles to and from the Earth, but as we move human presence 
deeper into the solar system, we need to break that tie back 
with Earth, and the Space Station is a great testbed to test 
that technology, to understand the next generation of life 
support systems. You know, we tested the systems for many years 
on the ground terrestrially before we took them to the Space 
Station. They did not work nearly as well in space as we had 
anticipated because of the loss of gravity. The carbon dioxide 
removal system is still a problematic system for us on board 
Space Station. We can operate it and keep it working well but 
it's not easy. We need to use the unique properties of Space 
Station to actually test that next generation of life support 
systems. Understanding how the human performs in space is 
important, and understanding even how we break that tie and we 
keep sensors like oxygen measurement devices calibrated for 
years without returning to the ground for recalibration. So I 
think station plays a pretty critical role. I don't think we'll 
have all those technology challenges done. We're going to need 
some facility in space beyond 2024 to keep working as we break 
the tie of the planet and move human presence further into the 
solar system.
    Mr. Higgins. Dr. Dittmar, would you comment on that 
question, please?
    Dr. Dittmar. I don't think there's any disagreement that we 
have to move off station. I think the only issue is when and 
how and what needs to happen between now and then. So it's 
already been talked about that there has to be a transition 
plan of some type. I don't know about you but I really like a 
certain amount of certainty, as a business owner in particular. 
I like it when I can predict outcomes. I don't like it when I 
can't predict outcomes. This is one of those circumstances 
where you just can't really predict the outcomes.
    We do know that there are certain things that have to 
happen, right? We have to meet as many of the research 
objectives that are involved in going to deep space as we 
possibly can, and NASA in fact has a risk matrix that it's been 
burning down, okay, doing that kind of research. We know that 
we want to enable researchers like Dr. Ferl to be able to do as 
much research as they can, and we want to establish some 
mechanism to be able to continue to do that research after 
we're finished with ISS. We know that for all the reasons that 
Bill just talked about and Eric just talked about, we want to 
be able to continue to have facilities available for people to 
do commercial development as well as to be able to test systems 
that we need to go into deep space. So the only real question 
is how do we get from here to there, right? I mean, that's the 
question. That's the one that's sort of facing everybody.
    The kinds of things that we know we want to allow for more 
time for have to do with commercial development, the kinds of 
things that we've already been discussing here, learning what 
kinds of systems work we may need to do as we go forward into 
deep space. So do I think that this is a value to the Nation to 
continue doing this? I certainly do. The unique properties of 
microgravity are things that we're just still starting to--I 
mean, we're really just early in trying to figure those out. 
Think about when radiation was discovered and all the things 
that we've learned about what to do with that in the years 
since, right? We had no idea when we first started. That was a 
unique physical property, right? What we've learned to do with 
that in the decades and decades since is extraordinary. It's 
actually in most aspects of our lives. So I think that it's 
just--I hate to counsel patience but I'm going to counsel 
patience. We need a little bit more time, I think, to allow 
these things to develop before we can get a real clear view of 
what that transition looks like.
    Mr. Higgins. Those are very helpful responses. Thank you 
both, ma'am, gentlemen, for appearing today.
    Mr. Chairman, I yield back.
    Chairman Babin. Thank you, Mr. Higgins.
    I now recognize the gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I want to thank our witnesses for their 
testimony today.
    I want to ask Mr. Stallmer and Dr. Dittmar, can you speak 
to the readiness of the private sector to fly its own modules 
in low-Earth orbit without NASA assistance or physical 
attachment to the ISS? And then can you talk about what roles 
that NASA and ISS played thus far and what role can it should 
it play in the future for this? Mr. Stallmer?
    Mr. Stallmer. I think what you're seeing right now with the 
flying of modules and the role of NASA in commercial is a 
tremendous partnership. It's a partnership that I think can't 
have one without the other, and I think what the assistance 
that NASA is providing is the technical assistance and some of 
the resources that are enabling these technologies to kind of 
crawl, walk, run. As I mentioned earlier, we saw this with 
Bigelow and we're seeing this with the possibilities of Axion 
and what they're looking to do.
    You know, time is going to be the best indicator of how we 
can move away to, you know, purely commercial space stations. I 
feel that the steppingstone that what is ISS and what they're 
doing is critical, and I think that partnership with NASA and 
the technology transfer and the investment that they're making 
intellectually is really critical.
    Mr. Lipinski. Thank you.
    Dr. Dittmar?
    Dr. Dittmar. I don't have much to add to that except to say 
that there are things about learning how to operate in space 
that you can only learn by operating in space. It sounds 
ridiculous but it's true. So when it comes to the development 
of commercial modules, I think that there are folks that are 
doing some really good work in thinking about how it is that 
they want to develop those, but a steppingstone approach where 
you have attachment to the station, for example, and you've got 
essentially the station resources available to you, knowledge 
available to you, that's a reasonable approach. If you had a 
commercial provider that really wanted to go try and do it all, 
I'd be a little concerned about that, only because I think that 
really, there's a unique knowledge set that just has to do with 
operations. It's different than launch, it's different than 
landing. All these things are a little bit different.
    So the partnership that NASA affords, I think, in 
developing those kinds of capabilities and sort of handing over 
that knowledge that's been developed over all these years I 
think is critical to commercial success, really important to 
those people who were wanting to go in that direction, and it's 
wonderful that NASA makes that available.
    Mr. Lipinski. So will the ISS or a replacement and NASA 
work in cooperation with commercial operations, will it always 
be necessary in order for this to be viable, or do we not know?
    Mr. Stallmer. ``Always'' is such a tricky word, and as I 
said, you know, it's a timetable----
    Mr. Lipinski. That's why I said we probably don't really 
know.
    Mr. Stallmer. Yeah. I do see the greater role that 
commercial is going to play, and I think, as we say these 
steppingstones, as we are making these technological 
breakthroughs at the ISS through microgravity, I see a greater 
interest in the investment community of enabling more 
commercial companies to do this and whether it's on medical 
research or just technologies that will be applicable here on 
the ground, I think that you'll only see that growing and with 
time you'll see the commercial impact on the station grow.
    Mr. Lipinski. Anyone else want to add anything on that?
    All right. Thank you very much. I yield back.
    Chairman Babin. Thank you, Mr. Lipinski.
    I now recognize the gentleman from Florida, Dr. Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman.
    I spent the last few years on the board of Space Florida, 
very much a commercial sort of focused entity, and with some 
pride we like to say we actually ran that thing in the black, 
so I know there is a commercial niche for space. I'd like to 
sort of focus on the commercial niches of the ISS specifically 
so let me start with Mr. Stallmer. Can you quantify for me the 
likelihood that the ISS would be supported entirely by 
commercial partners by 2024 or at any other time frame?
    Mr. Stallmer. I think it would be hard to speculate by 
2024. I think the commercial sector is moving in the right 
direction with NASA to fully privatize the station. It would be 
difficult but--because I think you do need that expertise that 
NASA offers. But I see more and more breakthroughs, you know, 
with--and it's going on in your state with the onset of the 
Commercial Crew program and the doubling of the crew that it 
would be able to work, more and more work on the station. I 
think that'll move the ball in the right direction to a greater 
and greater commercial percentage to allow NASA to do those----
    Mr. Dunn. Can you quantify, give me a percentage you think 
we can get to? Is it 50/50, 70 percent?
    Mr. Stallmer. I would love to see 50/50. I think that would 
be a great starting-off point and move in a higher direction.
    Mr. Dunn. Dr. Dittmar, same question, likelihood or, 
commercial balance versus NASA in the ISS?
    Dr. Dittmar. Very difficult to quantify. What I would point 
out----
    Mr. Dunn. That's what we have to do, though. You're going 
to help us.
    Dr. Dittmar. I understand. One of the things I would point 
out is that the cost of ISS, when we talk about the operations, 
we're talking about transportation as well as the actual 
operation of the vehicle, right? So let's assume for a moment, 
let's do a thought experiment, and let's just say that you're 
able to generate commercial revenues sufficient to support the 
entire operating cost of the vehicle itself, the M&O of the 
vehicle itself, that still leaves you right now--I know Bill's 
probably going to correct me if I'm wrong here--about 1.7 
Billion of transportation costs, roughly, which I would assume 
would go up over time. So one of the questions really is, is 
when are you generating enough business that you can start 
shifting the transportation costs back to the people who are 
actually generating the business. In other words, pay for your 
ride, right?
    Mr. Dunn. Yes.
    Dr. Dittmar. And that's for me actually even a more 
important question than the actual operations and the M&O part 
of the station. I think that's a difficult one to call because 
it's not just the United States, right? There's an 
international component to that. I think it's around half a 
Billion is being contributed right now by the international 
partners. So I'm much more interested in when you can start 
getting payback on the transportation end.
    Mr. Dunn. Good point. Thank you very much.
    Again, Mr. Stallmer, so how disrupting would it be to the 
commercial space industry to lose the ISS, if you just lost it 
entirely?
    Mr. Stallmer. I think it would be tremendously disruptive.
    Mr. Dunn. Can you quantify that?
    Mr. Stallmer. A hundred percent? We would lose----
    Mr. Dunn. That's what we're talking about here at the end, 
right?
    Mr. Stallmer. That's a number. We would lose our outpost in 
space where, you know, we're doing all the low-Earth orbit 
experimentation, all the advance sciences. I mean, to lose the 
ISS would be critical, you know, in part on the transportation 
sector of where we're going in space. It would, I think, 
infringe tremendously on our ambitions as a Nation for deep 
space exploration.
    Mr. Dunn. Okay. Dr. Ferl, are you doing any commercial 
research or is it pure science? By the way, very near my 
district and home. So nice to have you here. Any commercial-
based research?
    Dr. Ferl. The simple answer to that question is yes. We've 
seen as----
    Mr. Dunn. Well, I only have a minute so keep it simple.
    Dr. Ferl. We've seen from the community over time increased 
interest in the industrial private commercial sector in doing 
experiments on station. By nature, those experiments involve 
scientists. Some of those scientists are within the company and 
some of those scientists are contracted by the company from----
    Mr. Dunn. Are you working on the commercialization of a 
product by any chance?
    Dr. Ferl. People are, yes. Am I? No.
    Mr. Dunn. Okay. That's good. Thank you very much.
    I yield back, Mr. Chairman. Thank you. And thank you all 
for your work.
    Chairman Babin. Thank you, Mr. Dunn.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. [audio malfunction in the hearing room.]
    Chairman Babin. No, we can't wait. I'm sorry.
    Then I recognize the gentleman from Florida, Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman, very much, and I have--
actually I have a question for Dr. Ferl, my fellow Floridian. I 
was curious, there's a lot of discussion obviously today about 
the International Space Station. There's also a lot of 
discussion about a potential mission to Mars, and I noticed 
that in some of you work you've looked into--let me get my eyes 
back on--the Haughton Mars Project in the Arctic is some of 
your body in work, and I was just curious if you had to 
prioritize between continuing the International Space Station 
beyond 2024 or pursuing getting to Mars sooner, how would you 
prioritize those two if you would, or do you think it's just as 
important to simultaneously pursue both?
    Dr. Ferl. I would agree with my compatriot from the other 
end of the table here who says there has to be a transition and 
basically a dual-use appreciation for all the science that 
occurs in space. The notion that the station stands sort of 
alone as the way in which we derive scientific benefit for the 
trip to Mars is too simplistic. And by the way, touching the 
commercial sector are all the other vehicles that also 
currently inform scientific research for that mission to Mars--
suborbital space, parabolic flight. Commercial providers now 
are giving science the opportunity to develop the processes, 
experiences and data that it takes to get us to Mars. So the 
long way around to answering to your question is, I wouldn't 
prioritize as a scientist one or the other but I would say that 
maximal use of every opportunity from ground-based studies that 
do analog environments through suborbital projects and on-
station projects all richly inform that mission when we do 
decide to go to Mars.
    Mr. Crist. Thank you very much. To pursue that a little bit 
because getting to Mars is fascinating obviously, and what we 
might glean or be able to learn by, you know, that opportunity 
to explore it in greater detail fascinates me, but I can't help 
but recognize the fact that this week I read in the press about 
the potential additional discovery of significant amount of 
planets. Are you familiar with what I'm referring to?
    Dr. Ferl. I am, yes.
    Mr. Crist. I bet you are. And if you could elaborate on 
that, I would just be very grateful for your insight into what 
you think is happening, why they may have been missed prior or 
just--I'm a lawyer so I don't--my dad's a doctor and my 
sister's a doctor but I don't have your expertise and that's 
why we appreciate you all being here today, or I do, for sure.
    Dr. Ferl. From my perspective, the discovery of additional 
planets and additional Earth-like planets is simply going to 
continue and continue at a very rapid rate. We're going to 
continue to find that there are more and more planets like ours 
and like Mars the better our observation opportunities 
progress. I would not be surprised at all if we find that 
planets like ours are quite common in the universe, and don't 
be surprised the next time another handful of rocky Earth-like 
planets is discovered.
    Mr. Crist. Well, if I could take it a bit further, we're on 
a line of questioning, what do you think the possibilities or 
probabilities are that those planets that are similar to Earth 
would have any kind of life similar to ours?
    Dr. Ferl. One hundred percent.
    Mr. Crist. I would agree. I've always thought that it was 
almost arrogant to think that we're like the only thing moving 
around the entire universe.
    Dr. Ferl. Well, and again, I'd like to expand on that just 
a little bit, drawing back to----
    Mr. Crist. But that's just a gut feel for me. For you, it's 
a scientific conclusion.
    Dr. Ferl. And drawing back to the matter at hand, as we 
take our biology, ourselves, the creatures that go with us as 
we go into space, we learn an awful lot about what it takes for 
life to move around the solar system and therefore life moving 
around the universe. So the human exploration mission that NASA 
currently provides also richly informs a lot of our information 
on where we are in the universe and tells us how easy, hard, 
difficult it is to move life around. So it does reach out to 
your question about, you know, what's out in the universe in 
terms of other planets as well.
    Mr. Crist. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir, good questions. Thank you.
    Now I recognize the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I think I may be the only one on the panel that was here 
when we approved the Space Station, and I think I was sitting 
way over there at that time, and I listened to all the 
arguments, and it was not a certainty that the Space Station 
would be approved because I remember that we were also trying 
to balance the budget at the time, and we had to take some 
budget considerations and put them into the debate. Can you 
tell us, can anyone on the panel tell us how much has already 
been spent now on Space Station from the time we voted to move 
forward with the project?
    Mr. Gerstenmaier. As I said in my opening remarks, the 
number we have is $67 Billion, and that includes the shuttle 
transportation costs is our current estimate.
    Mr. Rohrabacher. Fifty-seven Billion dollars?
    Mr. Gerstenmaier. No, 67.
    Mr. Rohrabacher. Oh, 67? All right. Sorry, I came in about 
15 minutes late here for the hearing today.
    Okay. And if we maintain the Space Station, we decide to 
keep it in service, how much more will we be spending? Does 
anyone know that?
    Mr. Gerstenmaier. We're spending about $3 Billion per year 
on Space Station. That's made up of about $1.7 Billion of 
transportation costs. Those are the 13 percent of the global 
launch market, 700 to 800 million for research, and then 
roughly about a Billion dollars for just operation costs on 
station. That's U.S. costs. The international partners are also 
contributing to that overall.
    Mr. Rohrabacher. I was going to ask, how much do our 
partners contribute?
    Mr. Gerstenmaier. They're probably contributing, the other 
three, probably roughly about a Billion dollars per year.
    Mr. Rohrabacher. All of them together?
    Mr. Gerstenmaier. All of them together.
    Mr. Rohrabacher. Okay. And how many partners do we have?
    Mr. Gerstenmaier. We have the Canadians, Japanese and 
Russians, and Europeans.
    Mr. Rohrabacher. Okay. Now, when we were being--and by the 
way, I voted for it. It won by one vote, and it was my vote, 
just so you know.
    There is one element here that people don't realize. I'm 
not sure if the scientific research that has been done on the 
International Space Station has justified the expense of the 
$67 Billion that we're talking about, and I'm not sure that's 
the case, but there are other factors rather than just 
scientific research that come into play, and Space Station 
certainly renewed our national self-assuredness that we could 
do great things, and I think it's hard to put a price tag on 
that, and when people are demoralized and they don't think they 
can do great things, they don't do great things, and that costs 
a certain amount of money.
    Let me also note that Space Station played and continues to 
play an important role in creating an image of peaceful 
cooperation between the two countries that were willing to 
destroy each other and destroy the planet for the 40 years 
prior to building the Space Station, mainly the Soviet Union, 
which now has devolved away and is now Russia, but the example 
of Russian-American cooperation in space, there had been an 
attempt at earlier on at a much smaller level, Skylab, but I 
think that the--Mr. Chairman, we have to make sure that we 
understand that especially in Russia but in the United States 
as well, we have examples of now even at this time intentions 
are very on the upswing now between Russia and the United 
States, that we have an example of cooperation of what we can 
do technologically rather than just building better technology 
of how to destroy one another. And so I would think that even 
though the promises--and I will add there were many promises 
that cancer would be cured. I mean, I sat and listened to them. 
While I never did buy that, I hoped it would be true but I 
never really counted on that, but I do think that we can say 
that when we write our history of what was accomplished in the 
last century, Space Station will be up there on the list of 
great accomplishments and of things that showed there is a 
better way for mankind.
    So thank you very much, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you, Mr. Rohrabacher.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thank you, and I agree with Mr. 
Rohrabacher. I think that the accomplishments of the Space 
Station are tremendous, and both scientifically as well as in 
connection with international relations. The ability of so many 
countries to work together, to cooperate, to face challenges 
together I think bodes well for us as humans, and hopefully we 
will continue to do that.
    Now, where I don't agree with him and oftentimes that 
happens, is on the funding side of all of this, and I don't--I 
mean, he was here during the budget discussions for the lab. I 
was here during the budget discussions for the banks, and we 
were somehow able to come up with $800 Billion over a weekend 
to save the financial system, and so when there is a priority, 
when there is a will, we can do a lot of things whether it's an 
emergency or in a planned sort of setting, and I think we can 
maintain the laboratory and transition it to commercial 
operations and use over time and go to Mars.
    And so I would like to start with you, Dr. Dittmar, and 
just have you respond to sort of what I think we can do, and 
oh, by the way, I've always got to put my commercial up, which 
is to get to Mars by 2033. It says ``We can do this.''
    Mr. Rohrabacher. I would--would the gentleman yield for 15 
seconds?
    Mr. Perlmutter. To my friend from California, sure.
    Mr. Rohrabacher. Just to remind you, I voted against the 
bailout of the banks.
    Mr. Perlmutter. Okay. Doctor?
    Dr. Dittmar. I was going to be very disappointed if you 
didn't flash that bumper sticker, so thanks for doing that.
    I like your vision, of course. I've been at this for not as 
long as some people around the table but enough of my life that 
I'm deeply invested in forward progress in space. To echo 
something that you said, Congressman Rohrabacher, I believe 
that aspiration is absolutely critical to advancing society and 
advancing the human condition, and I also believe that aspiring 
to do great things--the Space Station is certainly one of them, 
moving into deep space is another one, going to Mars is an 
extension of that. Aspiring to great things, especially great, 
I mean truly great, daunting goals that we set ourselves to 
forces us to advance not only our technology and our science 
but the human condition.
    The International Space Station, in my view, is an exemplar 
of this for the reasons that have already been discussed here. 
Having been involved in it when the transition was really 
occurring for the Russians coming on board, I can tell you that 
I used to sit in meetings where I had the Japanese on one side 
and the Russians on the other side and the Americans in the 
middle, and this represents a range of cultures in a whole lot 
of different ways, and the intensity and focus of the 
individuals that are in that room to learn how to transcend 
language boundaries, cultural boundaries, technical boundaries 
and figure out how to work together is the reason that the ISS 
has been nominated for the Nobel Peace Prize, and I hope will 
be again.
    Going forward to Mars is that times 100. It's a truly 
exciting goal, a very challenging goal. It will bring out the 
best of us in this country. There is no question in my mind 
that the United States must lead that way forward, and I 
believe that it's worth the investment of our treasure and our 
resources and our commitment and our time over decades in order 
to be able to achieve that goal. I do believe it is achievable, 
and I think that we do have the resources to be able to reach 
it. We just have to choose to do it.
    Mr. Perlmutter. Thank you.
    Mr. Stallmer, go ahead.
    Mr. Stallmer. I'd love to address that issue. I think at 
times when you look at cost, you have to look at intangibles 
and sometimes numbers aren't always black and white. With $3 
Billion as in the $3 Billion of investment this Nation makes on 
the International Space Station per year, look at maybe where 
that $3 Billion gets you at the Department of Defense. I can 
say that firsthand working at the Pentagon. My colleague up 
there, who also works with me in the Reserves, how do we spend 
our dollars, and I think when you put it in that perspective, 
if it's a $3-Billion-a-year investment on what we're doing in 
space, I would tell you that today there's no place I'd rather 
be in this world than in front of you except for one other 
place: my daughter's first-grade class is doing a field trip to 
the Air and Space Museum today, and I was supposed to chaperone 
it, but again, I'm here with you guys by choice.
    Mr. Perlmutter. What time do you got to be there?
    Mr. Stallmer. It's too late. It's too late. They got there 
at 9:00.
    However, that being said, I get to talk to them enough and 
I get to see the excitement in their space, and to take--to 
look up above sometimes and to see the International Space 
Station with young people and to talk about the things that 
they're doing up there and the vision that they have, that my 
daughter and my sons and this younger generation are going to 
have in space because of the investment, the $3 Billion a year 
that we're spending. You know, there's some things I don't 
think you can put a price tag on, and I think that might be one 
of them.
    Now, in Congress, you've got to put a price tag on 
everything, and I certainly understand that challenge, but I 
think the benefit that we're getting from an international 
perspective from just a domestic perspective of our leadership 
in the world I think is well worth the cost.
    Mr. Perlmutter. And I thank you. And we've got to be smart 
with the people's money, no ifs, ands or buts about it, but the 
intangible investments that we're making, it's hard to quantify 
it but we've got to consider that, so thank you for your 
testimony.
    Mr. Stallmer. Thank you, sir.
    Chairman Babin. Thank you, Mr. Perlmutter.
    Now I recognize the gentleman from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman, and thanks to each of 
you for your testimony.
    I wonder if each of you could comment briefly on the impact 
of the Chinese station on commercial interests and low-Earth 
orbit and specifically what--in what ways might a Chinese 
station compete with commercial platforms?
    Mr. Gerstenmaier. Again, that's difficult to predict 
exactly how that comes about or what happens but we're also--
you know, today as a national Space Station program, we have 
international agreements with all the countries I described 
earlier, and what works well there is we do a barter agreement 
where there's no exchange of funds between us and the other 
countries so, for example, if the Europeans want to build a 
module, they do that investment in Europe and then that module 
flies to Space Station and is attached and is used for all of 
us and it's to the benefit of all the partners. So that's the 
basic model that the Space Station, the U.S. Space Station 
operates under.
    I could imagine the Chinese space station doing the same 
thing. I can see other countries interacting with China, and if 
we don't have a U.S. space station, then that would be the only 
space station available essentially to go to for these 
agreements, and that could pull away from America's leadership 
in space and technology towards China.
    So I think it's important that we keep our focus, we use 
the private sector as we've been doing before to leverage the 
private sector as much as we can. That gives us a unique 
competitive advantage over other countries but I think there is 
a threat from the Chinese and their potential relationship with 
other governments and other countries that our international 
leadership role could be diminished unless we have a very 
strong human presence in space at that time.
    Dr. Dittmar. I don't have anything to add to that.
    Mr. Stallmer. I would just add that it would--I think it'll 
push us harder as a Nation, as an industry, as a collective 
voice to work harder to achieve what we're looking to achieve 
in space from a commercial perspective. I think there's a 
laundry list of ambitions that we want to do in space, so it 
would be a challenge and a competitive nature, I think.
    Mr. Burnett. And I can't speak to the commercial impacts 
but I can tell you that leadership in science is an important 
thing for our science community, the role that the United 
States plays with regard to its current leadership. Its current 
ability to point science in the right direction is a very, very 
treasure that we would like to maintain.
    Mr. Banks. Okay. Thank you. I yield back.
    Chairman Babin. Thank you, Mr. Banks.
    Now I recognize the gentleman from Texas, Mr. Veasey.
    Mr. Veasey. Mr. Chairman, thank you very much, and I 
appreciate everything today.
    I wanted to ask about some of the key objectives in order 
of priority that argued for extending ISS operations until 2024 
and what is the status of progress on meeting those objectives. 
Mr. Gerstenmaier?
    Mr. Gerstenmaier. One of the things that we need to do is, 
we need to understand how the human body performs or how the 
physiology works in microgravity environments so we can go 
further into space. We have 33 items that we track on a list of 
things such as bone loss, vestibular ability of the balance 
system, fluid shifts, those kind of things, tolerance to 
radiation. There's 33 items listed on that list of which 22 are 
being actively mitigated or being investigated on board Space 
Station so those 22 items are helping us with that activity. 
Then separate from that, we're testing life support systems. 
The Orion carbon dioxide removal system is on board the Space 
Station and has been operating, and we're testing that system 
that is needed.
    And then also we're working with the commercial and private 
sector to expand the ability of commerce in space. We have 
awarded some new contracts for cargo resupply to the Space 
Station. Sierra Nevada Corporation out of Colorado is going to 
be one of the providers for cargo in the future. They have a 
different vehicle that comes back and can actually land on a 
runway. We think that has some advantages to us in returning 
samples from space, not landing in a capsule in the water and 
then picking the vehicle up, so that's another thing the 
station's doing. It's helping expand and help commerce get more 
experience.
    We're also kind of teaching the private sector how to 
operate in space and build space stations and do those things, 
and then there's some very fundamental research activities on 
station that are very unique. There's the alpha magnetic 
spectrometer, which looks for dark matter, looks for kind of 
the high-energy particles traveling through space. That 
research is purely fundamental in nature. We're about ready to 
fly an experiment called the Cold Atom Lab, which will be the 
coldest location in the universe where we can essentially take 
a molecule and despin the molecule and look at basic physics 
principles. That can be done absolutely nowhere else in the 
world, and that's a pure fundamental research of basic physical 
science.
    And I'm sure some of the other members on the panel here 
can add some more, but those are the things that we said we 
would do between now and 2024, and those things that we are 
actively working on today as we go through the operations on 
Space Station every day.
    Mr. Veasey. Thank you.
    Dr. Dittmar, Mr. Stallmer, Dr. Ferl, anyone else want to 
comment?
    Dr. Ferl. I'd be happy to jump in there just a little bit 
on a couple of the notions that Mr. Gerstenmaier put forth. One 
is that the science behind some of the technology challenges 
that he mentioned, for example, the fluid shifts in biological 
systems and the management of life support systems involve 
physical and biological principles that are now being 
understood because of Space Station. In other words, the notion 
that you have to fix fluid shifts in humans is an interesting 
technological challenge. Understanding the reason behind them 
and how you might mitigate them before they occur is a 
scientific challenge. So too with the movement of fluids and 
particles in biological systems and in physical systems such as 
the ECLSS system that supports human respiration and function.
    The additional notion is that the ecology within a closed 
environment such as the International Space Station is a unique 
environment to study what happens when humans and their 
microbes and their plants and their entire life system are kept 
in close quarters, and this informs a lot of clean building and 
other technologies here on Earth. But the other thing is that 
it is a scientific challenge to integrate across the biological 
and physical domains, not only to understand how to get into 
deep space but just to understand them better, period.
    Mr. Veasey. Thank you.
    Mr. Chairman, I yield back.
    Chairman Babin. Yes, sir. Thank you.
    Well, I thank the witnesses for their valuable testimony 
and the Members for their questions. The record will remain 
open for two weeks for additional comments and written 
questions from Members.
    And so with that, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
